  REVIEW OF PUBLIC BUILDINGS SERVICE’S
DELEGATIONS OF AUTHORITY TO LEASE SPACE
    REPORT NUMBER A060082/P/6/R07004
            AUGUST 24, 2007
                     REVIEW OF PUBLIC BUILDINGS SERVICE’S
                   DELEGATIONS OF AUTHORITY TO LEASE SPACE
                       REPORT NUMBER A060082/P/6/R07004


                                  TABLE OF CONTENTS
                                                                       Page

REPORT LETTER                                                           1

INTRODUCTION                                                            2

 Background                                                             2

 Objective, Scope and Methodology                                       3

RESULTS OF REVIEW                                                       4

 Brief                                                                  4

 Finding – Delegated leases were not awarded in accordance
 with applicable policies, laws, and regulations                        4

         Potential Prospectus Violations                                4

         Excessive Lease Costs                                          7

         Agencies Not Adhering to PBS Delegation Letter Requirements    9

 Conclusion                                                             10

 Recommendations                                                        11

 Management Comments                                                    11

 Internal Controls                                                      11

 Report Qualification                                                   11

APPENDICES

 Sample Delegated Leasing Actions Reviewed                             A-1

 Sample Lease Delegations That Were Not Reviewed or
 Did Not Result in a Lease                                             B-1




                                           i
                      TABLE OF CONTENTS (cont.)

                                                  Page

Management Comments                               C-1

Report Distribution                               D-1




                                  ii
                   REVIEW OF PUBLIC BUILDINGS SERVICE’S
                 DELEGATIONS OF AUTHORITY TO LEASE SPACE
                     REPORT NUMBER A060082/P/6/R07004


                                  INTRODUCTION


Background

The General Services Administration’s (GSA’s) Public Buildings Service (PBS) has
primary authority to lease real property for use by Federal agencies. This authority is
derived from the Federal Property and Administrative Services Act of 1949 and
Reorganization Plan No. 18 of 1950. That authority is now codified in Title 40 of the
United States Code, Section 585, which authorizes GSA PBS to enter into space leases
on behalf of Federal agencies for terms up to 20 years.

On September 25, 1996, PBS established the “Can’t Beat GSA Leasing” program,
which is often referred to as the “Provider of Choice” (POC) program. The POC
program encourages all Federal agencies to utilize PBS as their leasing agent for
general-purpose space but does allow these customer agencies to request that GSA
delegate its leasing authority to the agency. This delegation of authority allows the
agency to perform a specific leasing action without the assistance of PBS personnel. In
accordance with lease delegation procedures, customer agencies are responsible for
complying with all applicable rules, laws, and regulations related to awarding leases,
including the Title 40 United States Code and General Services Administration
Acquisition Manual. In addition to compliance with laws and regulations, the POC lease
delegations have other restrictions including that (1) the annual rental not exceed
prospectus limitations, and (2) agencies provide PBS with award information on
delegated leases.

Although most delegated leases are for general-purpose office space, we note that the
delegation of leasing authority portion of the POC program did not alter the space
delegation requirements in sections 101-18.104-2 and 101-18.104-3 of the Federal
Property Management Regulations (subsequently replaced by Federal Management
Regulation, Parts 102-73.145 through 102.73.225), which pertain to categorical and
special-purpose space.

GSA’s Office of Governmentwide Policy (OGP) serves in an oversight role for the lease
delegation program. The OGP has reported on the POC program three times, in 1998,
2001, and 2006. OGP reviews indicated that in fiscal year (FY) 1997, PBS awarded
approximately 668 leases for agencies compared to 6 leases processed by agencies
under the POC program. The second review indicated slow growth in the use of the
POC program with only a total of 14 leases awarded under the POC program between
FYs 1999 and 2001. The third review conducted in 2005 indicated that agencies were


                                          2
increasing their use of the POC program. Data gathered from the agencies indicated a
total of 70 leases awarded under the POC program during FY 2004.

Our review of delegated leasing actions was initiated based on some indications that a
delegated lease action for dormitory space performed by the Department of Homeland
Security may have exceeded prospectus limitations.

Objective, Scope and Methodology

The primary objective of this review was to determine whether leasing actions that were
performed by customer agencies under a delegation of authority from GSA were
awarded in accordance with applicable laws, regulations, and policies and procedures.

This review was designed to be a nationwide review of GSA’s delegated leases. To
select the review sample, we (1) compiled a list of delegated lease activity in the
Southeast Sunbelt, Greater Southwest, Pacific Rim, and National Capital regions
because our review of PBS Central Office records indicated that these regions had the
greatest delegated square footage during FY 2001 through FY 2006, (2) developed the
list of delegated leases for these four regions by combining delegated lease listings
from PBS Central Office, OGP, and PBS regional offices, and (3) selected delegated
leases for these four regions that appeared to exceed 25,000 square feet for the
customer agencies with the greatest lease delegation activity during FY 2001 through
FY 2006. These customer agencies included the Departments of Defense, Homeland
Security, Interior, Justice, Treasury, Agriculture, Veterans Affairs, and the National
Archives and Records Administration.

The sample included 52 leases that accounted for 6.9 million of 8.2 million square feet
of space (84%) included in the lease delegation list for the four regions; however, for
various reasons, we reviewed documentation for 25 leases (see Appendix A and
Appendix B).

The results of the review are qualified because GSA did not have one central point that
included all lease delegation information. Accordingly, we could not verify that our
sample universe was complete or that all of the information was accurate. (See Report
Qualification section)

To accomplish our objective, we:

•   Reviewed lease files and documentation provided by the customer agencies;
•   Reviewed laws, regulations, and applicable guidance;
•   Held discussions and corresponded with GSA officials within OGP and PBS; and
•   Held discussions and corresponded with officials from the customer agencies that
    provided files and documentation for the selected delegated leasing actions.

The review was performed during the period of September 2006 through April 2007 in
accordance with generally accepted Government auditing standards.


                                          3
                                         RESULTS OF REVIEW


Brief

Our review of twenty-five delegated leases determined that eighteen delegated leases
were not awarded in accordance with applicable policies, laws, and/or regulations. The
issues that we identified included potential prospectus violations, excessive rental rates
and other lease costs, violations of delegated lease authority, and inadequately
documented lease files.

In our opinion, the leasing problems occurred primarily as a result of the customer
agencies’ lack of expertise in performing lease procurements and because the agencies
failed to report lease details to GSA officials and obtain assistance from GSA.

As a result, to prevent future violations of laws, regulations, and authority delegations
related to delegated leasing actions, we believe that PBS should modify the POC
program to limit delegations of leasing authority to customer agencies. In addition, PBS
should implement management controls commensurate with the risk associated with
delegated leasing actions.

Finding - Delegated leases were not awarded in accordance with applicable
policies, laws, and regulations.

Our review of delegated lease procurements made during FY 2001 through FY 2006
determined that eighteen out of twenty-five delegated lease procurements had some
type of deficiency (see Appendix A). These deficiencies included (1) potential
prospectus violations, (2) excessive lease costs, and (3) violations of delegated
authority.

Potential Prospectus Violations

The Public Buildings Act of 1959 requires Congressional approval of all leases when the
annual rental (excluding services and utilities) for the lease contract exceeds the
prospectus limitation ($1.74 million in 1996 and adjusted annually for inflation). In
addition, the prospectus limitation may apply to supplemental lease agreements
(SLAs) 1 .

Our review of customer agency lease file documentation indicated several delegated
leasing actions may have been awarded in violation of prospectus approval
requirements. Although we believe the lease file documentation provided indicates
these may be prospectus violations, we did not perform additional review work related
to these potential violations because (1) these were delegated lease actions and were
not performed by GSA personnel (these potential violations will be referred to the
appropriate Office of Inspector General for the customer agency involved), and (2)
1
    SLAs are modifications to a lease contract after the lease is executed.


                                                       4
additional review work was not needed to support our review conclusions.                       Some
examples of potential prospectus violations are:

        Department of Defense. The Department of Defense (DOD) awarded a lease on
June 6, 2003, for 114,816 square feet (sq. ft.) of office space on Fort Sam Houston
Army Base at an annual net rental rate of $2,210,208. While the rental rate itself
appears to be a violation of FY 2003 prospectus limitation of $2,210,000, what was
more troubling was that on September 29, 2003, DOD issued SLA No. 1 for a lump sum
reimbursement of $7,713,341 in additional tenant improvement (TI) work. The
closeness of the dollar value of the rental rate to the prospectus limitation combined
with the large SLA for TI work awarded after the execution of the lease indicates that
the customer agency may have been aware of the prospectus limitations and may have
attempted to engineer the rental rate to avoid obtaining Congressional approval by
paying for renovation work through an SLA. However, not only is the lease rental rate
subject to prospectus limitations, but SLAs are also subject to similar limitations (i.e.,
SLAs cannot violate prospectus requirements) and accordingly, SLA No.1 for this lease
may have been awarded in violation of prospectus limitations. Even if SLA No.1 to this
lease did not exceed prospectus limitations, tenant improvement work that is paid for on
a lump sum basis (either in the lease award or in SLAs) is generally amortized over the
firm term of the lease and added to the rental rate in order to ensure that the lease does
not exceed prospectus limitations. Lastly, we noted that DOD issued additional SLAs
for TI during FY 2004 that totaled $3,221,929 (which exceeded the FY 2004 prospectus
threshold of $2,290,000). As a result, we believe that DOD potentially violated
prospectus approval requirements on at least three separate actions taken under this
delegated lease authority.

While DOD obtained a Title 10 Clearance 2 approval from the House Committee on
Armed Services for this lease on January 3, 2003, the lease file documentation provided
shows that no prospectus was prepared and Congress did not approve this lease. We
also note PBS’ delegation of authority letter, dated November 22, 2002, specifically
directed DOD to prepare a prospectus to submit to Congress for deliberation by the
Senate and the House of Representatives.

        Department of Homeland Security. On April 18, 2001, the Department of
Homeland Security (DHS) awarded a lease for ten acres of land upon which a 134,100
sq. ft. facility would be constructed to provide 300-room dormitory for the Federal Law
Enforcement Training Center (FLETC) in Glynco, GA. The lease was for a firm term of
twenty years at an annual rent of $2,013,625. Deducting the operating expenses
estimated by FLETC to be $216,100, net annual rent was $1,797,525, or $192,475
below FY 2001 prospectus of $1,990,000. On October 24, 2001, DHS awarded a lease
for a second 300-room dormitory on the same property for an additional net annual rent
rate of $1,774,115. On September 4, 2002, a third 300-room dormitory lease was
executed on the same site with a net annual rent rate of $1,882,565. Combined with
the initial and first option, the net annual rent for all three dormitories is $5,454,205

2
 Title 10 USCS 2662 clearance for Armed Services states that DOD must report a lease of any real
property under Title 10 if the estimated annual rent is more than $750,000.


                                                  5
($1,797,525 + $1,774,115 + $1,882,565 = $5,454,205), which is in excess of the
prospectus limitations in effect during this period.

DHS officials contend that they did not violate prospectus requirements because each
dormitory building is a stand-alone project. Based on our review of information related
to this delegated lease project, we believe that these buildings were a total project that
required congressional approval.

       Department of the Interior. The Department of the Interior (DOI) awarded a lease
on November 2, 2001, for construction of a 160,000 sq. ft. building used for offices and
records storage and related uses for a term of ten years in Albuquerque, NM. This is
another troubling delegated lease action because it appears that DOI was aware of
prospectus limitations and attempted to avoid this limitation by only paying rent on
140,000 sq. ft. for the first two years of the lease and receiving 20,000 sq. ft. for “free”
and then paying higher rent on the entire 160,000 sq. ft. for the remainder of the lease
period. A present value calculation of the rental rate indicated that the rental for later
years also exceeded prospectus limitations. Based on our review of DOI’s lease file
documentation, we believe that DOI may have violated prospectus requirements in the
award of this delegated lease.

        DOI also awarded a twenty-year firm term lease on June 20, 2004, for
construction of a 140,000 sq. ft. building in Albuquerque, NM. Although the base rental
for this leasing action was under prospectus limitations, an additional $11.1 million of
lump sum TI work was added through two SLAs. One SLA was for $8,995,201
(effective July 1, 2005) and in addition to this SLA being above prospectus limitations,
we believe that the lease itself exceeded prospectus limitations because the base rent
combined with the amortized cost of the lump sum work exceeded prospectus
limitations.

       Department of Veterans Affairs. On August 18, 2000, PBS granted conditional
authority to the Department of Veterans Affairs (VA) for general-purpose office space in
Phoenix, AZ. The conditional authority stated that the requirement for prospectus
approval was not met and, therefore, PBS did not give authorization to VA to proceed
with the procurement process for this lease. The VA subsequently awarded this twenty-
year lease on October 12, 2001, without obtaining a final delegation letter from PBS.
Based on the lease file documentation, the Senate approved the leasing action on
September 25, 2001, and the House of Representatives approved the leasing action on
November 7, 2001. However, the Congressional approval granted authorization to
lease space for a maximum of fifteen years, not the twenty years awarded by the VA.
We consider both the fact that the official prospectus approval was after the lease
award and the lease was awarded for a term that exceeded the authority of the
prospectus to be potential prospectus violations.

      Conclusion. We believe that these potential prospectus violations occurred
because the customer agencies did not comply with laws and regulations and also




                                             6
because the customer agencies did not fully understand prospectus requirements and
lacked expertise in this area.

Recent changes in the Federal Register (Vol. 70, No. 215, § 102-73.40, issued on
November 8, 2005) state, “…the general purpose lease delegation authority is restricted
to below the prospectus threshold, and therefore, GSA must conduct all lease
acquisitions over the threshold.” Although this change should prevent the delegation of
most prospectus level leasing actions, it does not address other potential prospectus
violations that we found including split leasing procurements and exceeding delegated
lease limits. Accordingly, we believe that GSA should implement additional limitations
on delegated leasing authority.

Excessive Lease Costs

In addition to possible prospectus violations, we believe that some of the delegated
leasing actions were awarded at rates and/or included costs that were excessive.
Although we did not perform in-depth reviews of the pricing received under these
delegated leasing actions, we believe that the examples noted below raise sufficient
issues to question the validity of the pricing.

       Department of Defense. Under delegations of authority from GSA, DOD
awarded four sole source leases to a private company that controls space on the Fort
Sam Houston Army base. We believe that the lease rental rates, lump sum items, and
operating expenses of these leases are excessive in comparison to the local market.

As background, DOD has a program to utilize vacant space on DOD bases called the
Enhanced Use Lease (EUL) program. The EUL is provided authority under Title 10
United States Code Section 2667, as amended. This authority allows for military
installations to outlease land and facilities to a private or public entity and allows the
base to receive funding from the private company to supplement the base appropriation.

The master lease for the Fort Sam Houston EUL property is between the Secretary of
the Army (Lessor) and Fort Sam Houston Redevelopment Partners, Ltd. (Lessee), for a
term of fifty years, beginning June 1, 2001 and ending May 31, 2051. The master lease
states, “Beginning on the Lease Term Effective Date, the Lessee shall assume all of the
Lessor’s obligations to maintain, at the Lessee’s sole cost and expense…” In addition,
Section 3.b states, “The Lessor shall receive as rent (“Rent”) hereunder the following
percentages of the Net Cash Flow 3 arising from the operation of the Lease Premises on
an annual basis during the Term:

                  Years 1-13 of the Term – ten (10%) percent
                  Years 14-25 of the Term – twenty-five (25%) percent
                  Years 26-30 of the Term – forty-five (45%) percent
                  Years 31-50 of the Term – fifty (50%) percent


3
    Net Cash Flow was defined to mean the excess of rental income over the lessee’s expenses.


                                                    7
Under this master lease, the lessee assumed control of three existing buildings at Fort
Sam Houston and then leased space in these existing buildings to Army tenants that
obtained delegations of lease authority from GSA. In essence, the lessee, with no
upfront rental cost, had secured the ability to lease space at Fort Sam Houston. We
believe that this agreement should have allowed the lessee to provide space at rental
rates that were significantly below market rental rates.

However, our review of the four leases awarded at Fort Sam Houston showed that the
awarded rental rates for the leases exceeded appraised market values by 28.4% to
32.4%. Although the files contain varying appraisals, we believe the most reliable
appraisal was performed on the largest lease and established a market value of $18.50
per sq. ft. while the awarded rental rates ranged from $23.75 to $24.50 per sq. ft.

In addition to the rental rates, each of these leases had significant lump sum costs for
TI. For example, SLA No. 1 for the largest of the four leases (114,816 sq. ft.) included
$7,713,341 for TI work (through subsequent SLAs, this amount grew to over $12
million). This amounts to $67 per sq. ft. for these SLAs and a total TI amount of $105
per sq. ft. In our reviews of leases for general-purpose office space, TI work above
what is normally required by the lease is generally under $35 per square foot.

Lastly, these leases required the adjustment of operating expenses on a yearly basis to
reimburse the lessor for increases in expenses such as utility and janitorial costs. Our
review determined that these leases included unusually large increases in operating and
included cost items that should not be charged directly through operating expenses.
For example, on the largest of the four leases, the lease award operating expenses
were $5.25 per sq. ft. SLA No. 30 to this lease increased operating expenses by 52%
to $7.96 per sq. ft. and the Lessor’s Annual Cost Statement included costs for items that
are not directly reimbursable as operating expenses such as Payroll Engineer, Payroll
Assistant Engineer, Payroll Manager, Payroll Secretary, Dues & Subscriptions, and
Meals.

As a result, we believe that the rental rates and other costs associated with these
leases were higher than what should have been negotiated and awarded.

        Department of the Treasury. One of the Treasury leases that we reviewed was a
sole source lease where the agency remained in its current location (that had previously
been awarded by GSA). Treasury awarded a lease on July 16, 2006, for 30,426 sq. ft.
of office space in St. Petersburg, FL for a term of five years with annual stepped-rent
starting at $517,242 ($17.00 per sq. ft.) for year one to $593,916 ($19.52 per sq. ft.) for
year five, with one five-year extension option. The contracting officer converted the
stepped-rent into a level rent rate of $18.18 per sq. ft. Prior to this lease, Treasury paid
GSA $16.58 per sq. ft., which included a GSA fee of eight percent. Treasury could not
explain why the rental rate increased for this lease.

       Conclusion. Some of the reasons that agencies requested delegated lease
authority were (1) to avoid paying GSA the fee that GSA charges to agencies for the



                                             8
award and administration of leases, and (2) to expedite the lease process. No agency
stated that they requested delegated lease authority because they believed that they
could obtain better pricing than GSA. On the leases that we reviewed, we believe that
potential cost savings could have been realized if the leases were awarded in
accordance with applicable laws, regulations, policies and procedures.

Agencies Not Adhering to PBS Delegation Letter Requirements

We determined that for most of the lease delegations actions that we reviewed,
customer agencies did not comply with the requirements listed in the PBS delegation
letters that granted the customer agencies the authority to lease space. As previously
discussed under the prospectus violations section, customer agencies failed to comply
with GSA directives regarding prospectus requirements. Some customer agencies
were specifically instructed to either obtain prospectus approval or to obtain an
additional delegation letter from PBS and still failed to do so. In addition, some
agencies exceeded the authorized square footage amounts specified in the delegation
letter, failed to properly document lease files, and failed to keep GSA informed of the
leasing actions. Some specific examples are:

      Department of the Interior. The DOI U.S. Geological Survey awarded a lease on
March 1, 2004 for approximately 47,412 sq. ft. of office space in Sacramento, CA for a
term of ten years, with one ten-year option. The PBS delegation of authority letter
approved the requirement for 26,000 sq. ft. The file did not include documentation as to
why the additional square footage was awarded.

In addition, PBS delegated leasing authority to the DOI Bureau of Indian Affairs (BIA) for
106,000 sq. ft. of general-purpose office space in Albuquerque, NM, and BIA awarded a
lease on June 20, 2004, for 140,000 sq. ft. The file documentation did not indicate that
GSA had approved the increase in square footage.

       Department of Veterans Affairs. On June 25, 2003, PBS delegated lease
authority to the VA for 24,947 sq. ft. of office space in Decatur, GA. On September 9,
2003, the VA awarded a five-year lease in Atlanta, GA for 27,429 sq. ft. Through SLAs,
the VA increased the square footage of this lease to 51,296. The lease file
documentation did not contain an additional delegation letter from GSA or
documentation as to why the additional square footage was awarded.

       Department of Agriculture. The Department of Agriculture (USDA) awarded a
ten-year lease on October 5, 2004, for 84,380 sq. ft. of office and basement storage
space in Albuquerque, NM. The September 30, 2004, PBS delegation of authority letter
approved the requirement for 75,000 - 90,000 sq. ft. However, through SLAs, USDA
increased the space further to 117,172 sq. ft. There was no documentation indicating
that USDA had these increases in square footage approved by GSA.

In addition, some examples of inadequate documentation include:




                                            9
        Contract File History. At least 14 of the 25 (56 percent) of the lease files
reviewed contained insufficient documentation to support that the Government received
a fair and reasonable price. Federal Acquisition Regulation (FAR) 4.801, states that file
documentation shall be sufficient to constitute a complete history of the transaction. In
these instances, pertinent lease file documentation, such as an acquisition plan, market
survey, appraisal, price negotiation memorandum, etc., was not provided or included in
the lease file. Agency responses to our requests for these documents often included a
statement that the documentation was not in the contract file and/or that the Contracting
Officer (CO) was not aware of the requirement to prepare or include a document in the
file.

        Lack of Justifications. In at least two instances where the leases were procured
under urgent and compelling needs, the file documentation lacked justification. The CO
is required to document the file to show the basis for the procurement as FAR 6.303
states a CO shall not commence negotiations for a sole source contract without written
justification identifying the cause as outlined in FAR 6.302 and required approvals are
obtained as required by FAR 6.304.

       Lack of Scoring Evaluation. In one instance, our review of the lease file
documentation and the response from the agency indicated there was no scoring
evaluation conducted. According to Federal Management Regulation § 102–73.135, all
Federal agencies must follow the OMB Circular A-11 budget scorekeeping rules for
leases, capital leases, and lease-purchases. Also, although we did not perform detailed
scoring analyses, some of the scoring analyses that were included in the lease files did
not appear to have been properly prepared.

We believe these instances where the agencies overlooked directives, exceeded the
authorized square footage amounts, or failed to properly document files occurred
because the agencies either disregarded or did not fully understand the parameters set
forth in the PBS delegation of authority letters.

Conclusion

While not every leasing action that we reviewed had significant problems, many of the
leasing actions, especially some large leasing actions, had problems that included
potential violations of laws and regulations, pricing irregularities, and violations of
policies and procedures. In our opinion, the leasing problems occurred primarily as a
result of the customer agencies’ lack of expertise in performing lease procurements and
because the agencies failed to report lease details to GSA officials and obtain
assistance from GSA.

Currently, GSA has been working to improve its oversight of lease delegations and
developed a draft outline for a new oversight plan. To prevent the problems identified in
this report would require oversight of customer agencies during the lease award
process as well as approval of the lease and any amendments. However, this




                                           10
monitoring and oversight would be excessive, especially considering that this program
does not result in any fees that could be used to fund the necessary oversight.

As a result, to prevent future violations of laws and policies as well as excessive leasing
costs, we believe that PBS should modify the POC program to institute controls that will
limit future delegations of leasing authority to customer agencies. For example, PBS
should consider limiting its delegations of multi-year lease authority for general-purpose
office space procurements to a specific square footage threshold (i.e., 10,000 sq. ft.)
and establish controls commensurate with the risks at that threshold. For space
requests such as parking, warehouse space, land, or special-purpose space, GSA
should also establish limits on the delegations of authority it will grant; however, the
basis may differ from that of general-purpose office space.

Recommendations

We recommend that the Commissioner, Public Buildings Service;

   1. Establish threshold limits for the delegation of GSA’s lease authority to other
      agencies.

   2. Implement management controls over delegated leases that are commensurate
      with risks associated with the delegations.

Management Comments

In his August 22, 2007, comments to the draft report, the Commissioner concurred with
the recommendations. The Commissioner’s comments to the draft report are included
as Appendix C of this report.

Internal Controls

Our review of documentation for compliance determined that in general, customer
agencies had little or no internal control structures to ensure that the leasing actions
performed by the agencies under delegations of authority from GSA complied with
applicable laws, regulations, and policies and procedures.

Report Qualification

The review results are based on data provided by PBS Central Office, OGP, and PBS
regional offices that was sometimes inconsistent, duplicative, or incomplete. However,
we found no information that led us to believe the universe from which our sample was
taken was materially incorrect. As a result, we believe that the sample of delegated
leases that we selected provided an adequate basis for the review findings.




                                            11
APPENDICES
                    REVIEW OF PUBLIC BUILDINGS SERVICE’S
                  DELEGATIONS OF AUTHORITY TO LEASE SPACE
                      REPORT NUMBER A060082/P/6/R07004

                                   APPENDIX A
                    Sample Delegated Leasing Actions Reviewed (1)

 Agency     Lease Location     Delegated Sq. Ft.   Actual Sq. Ft.    Type of Space     Notes
                                      (2)                (2)
DOD          San Antonio, TX     Not Specified        326,528       Warehouse/Office    (3)
DOD         Lackland AFB, TX     Not Specified        6 Units       Student Housing     (4)
DOD          San Antonio, TX       130,000            118,567            Office         (5)
DOD          San Antonio, TX        70,000             75,136            Office         (6)
DOD          San Antonio, TX        42,300             51,000            Office         (7)
DOD          San Antonio, TX        18,500             28,901            Office         (8)
DOD              Irving, TX         22,245             22,245            Office         (9)
DHS             Glynco, GA       Not Specified       400,000+         Dormitories      (10)
DOI         Albuquerque, NM        106,000            140,000            Office        (11)
DOI            Harahan, LA          28,000             28,311         Warehouse        (12)
DOI             Tucson, AZ       Not Specified         50,247       Warehouse/Office   (13)
DOI          Sacramento, CA         26,000             47,412            Office        (14)
DOI         Albuquerque, NM      Not Specified        160,455            Office        (15)
DOI          Washington, DC         50,000             31,520            Office        (16)
DOI             Reston, VA          30,000             18,064            Office        (17)
DOJ         Bennettsville, SC       37,000             45,000         Warehouse        (18)
Treasury    St. Petersburg, FL      30,426            30,426             Office        (19)
Treasury   San Bernardino, CA       40,796            40,796             Office        (20)
VA             Phoenix, AZ       Not Specified         95,558            Office        (21)
VA              Atlanta, GA         24,947             51,296            Office        (22)
NARA            Atlanta, GA      Not Specified        350,000       Warehouse/Office   (23)
NARA          Fort Worth, TX       255,445            205,462       Warehouse/Office   (24)
NARA            Perris, CA       Not Specified        183,194       Warehouse/Office   (25)
USDA        Albuquerque, NM     75,000-90,000         117,172            Office        (26)
USDA            Salem, AR        Not Specified          2,696            Office        (27)

Notes:

(1) This appendix presents a listing of twenty-five delegated leasing actions that we
    reviewed and a brief description of the review results.

(2) The delegated square feet (sq. ft.) was the square footage noted in the Public
    Buildings Service (PBS) delegation of authority letter and the awarded sq. ft.
    represents the total sq. ft. for the lease (either documented on award
    documentation or through a supplemental lease agreement (SLA)).

(3) On March 20, 2002, PBS granted authority to the Department of Defense (DOD) Air
    Force Medical Logistics Office (AFMLO) to procure warehouse space in San



                                           A-1
                  Sample Delegated Leasing Actions Reviewed (cont.)

    Antonio, TX. AFMLO requested that Veterans Affairs Special Services (VASS)
    procure this lease on its behalf and on April 16, 2003, VASS awarded a lease for
    248,513 sq. ft. of warehouse and office space (mostly warehouse) for the AFMLO
    for a term of five years, with one five-year option. While some requested
    documentation was not provided, we did not find reportable conditions for this
    lease.

(4) The request for delegation of authority for this lease came from the Transportation
    Security Administration. The January 12, 2004, agreement provides for housing for
    up to 108 civilian police officers per year for training at a rate of $83.00 per day per
    unit. The term of this agreement was from October 1, 2004, through September 30,
    2005. We did not find any reportable conditions related to this delegated leasing
    action.

(5) The DOD Army Corps of Engineers (COE) awarded a lease on June 6, 2003, for
    114,816 sq. ft. of office space at an annual net rent rate $2,210,208 ($24.50 per sq.
    ft.) for the United States Army South on the Fort Sam Houston Army base. This
    lease had numerous problems including potential prospectus violations and lease
    cost issues and is discussed in the body of the report.

(6) The DOD COE awarded a lease on May 16, 2003, for the United States Army
    Medical Information Systems and Services Agency for 75,136 rentable sq. ft. of
    office space with annual rent of $1,784,480 ($23.75 per sq. ft.) on the Fort Sam
    Houston Army base. This lease had numerous problems including potential
    prospectus violations and lease cost issues and is discussed in the body of the
    report.

(7) The DOD COE awarded a lease on July 3, 2003, for the Southwest Region
    Office/Installation Management Agency for 51,000 sq. ft. of office space on the Fort
    Sam Houston Army base. The annual rent on this lease was $1,249,500 or $24.50
    per sq. ft. This lease had numerous problems as discussed in the body of the
    report.

(8) The DOD COE awarded a lease on September 22, 2004, for the Defense Contract
    Management Agency for 28,901 sq. ft. on the Fort Sam Houston Army base at an
    annual rental of $686,399 or $23.75 per sq. ft. This lease had numerous problems
    and is discussed in the body of the report.

(9) The DOD COE awarded this lease on September 1, 1999, for 22,245 sq. ft. of office
    space in Irving, TX for the Defense Contract Audit Agency (DCAA). This five-year
    lease was awarded to the current lessor at rental rates that were higher than the
    previous lease that DCAA had with GSA. DCAA obtained an additional delegation
    of authority to lease space and entered into a 22,245 sq. ft. lease at the same
    property for the period October 1, 2005 through September 30, 2006, with four one-



                                            A-2
                  Sample Delegated Leasing Actions Reviewed (cont.)

     year options. In addition to the possible rental rate issues, the lease file did not
     include some required documentation.
(10) Under a single delegation of authority from GSA, the Department of Homeland
     Security (DHS) awarded a lease on April 18, 2001, for ten acres of land and a
     134,100 sq. ft. facility to provide a 300-room dormitory for the Federal Law
     Enforcement Training Center in Glynco, GA. DHS then awarded two additional
     leases for dormitories on same property. As discussed in the body of the report, we
     believe that this leasing action violated prospectus limitations.

(11) The Department of the Interior (DOI) Bureau of Indian Affairs (BIA) was delegated
     authority to lease a total of approximately 106,000 sq. ft. in Albuquerque, NM. On
     June 20, 2004, BIA procured a lease for 140,000 sq. ft. of office space for a twenty-
     year firm term at an initial annual rental of $3,026,800 or $21.62 per sq. ft. This
     leasing action had numerous issues including, potential prospectus violations, high
     cost of tenant improvements, exceeding the delegation of authority, and missing
     lease file documentation.

(12) DOI Mineral Management Service awarded a lease on September 30, 2005, for
     28,311 sq. ft. of warehouse/storage space for a term of twelve months. This lease
     delegation was granted in the aftermath of Hurricane Katrina. Although the lease
     file documentation was limited, it appeared that competition was not obtained for
     this procurement. In addition, the annual rental appeared to be excessive at
     $382,198 or $13.50 per sq. ft.

(13) The DOI National Park Service awarded a twenty-year firm term lease on July 13,
     2001, for 50,247 sq. ft. of office, storage, laboratory, and highly specialized
     repository space based on a PBS delegation of authority for 54,700 sq. ft. The
     lease was in Tucson, AZ, and the annual rental for this space was $1,997,318 or
     $39.75 per sq. ft. Although the rental rate is very high, this could be due to the cost
     of building the specialized space.

(14) The DOI U.S. Geological Survey awarded a lease on March 1, 2004, for
     approximately 47,412 sq. ft. of office space in Sacramento, CA for a firm term of ten
     years at a rental of $1,223,230 or $25.80 per sq. ft. PBS delegated authority for
     26,000 sq. ft. and as a result, the lease award specifications did not adhere to the
     PBS delegation. In addition, the lease file did not contain required documentation
     such as a price negotiation memorandum or an award evaluation.

(15) DOI National Business Center (NBC) awarded a lease on November 2, 2001, for
     construction of a 160,000 sq. ft. building used for offices, records storage and
     related uses for a term of ten years at stepped rental rate. The rental rate for the
     first two years of the lease was $2,560,600 or $18.29 per sq. ft. for 140,000 sq. ft.
     and 20,000 sq, ft, at no cost. As discussed in the body of the report, we believe
     that the 20,000 sq. ft. was provided at no cost in an attempt to avoid prospectus
     requirements. However, we believe that this project still exceeded prospectus


                                            A-3
                  Sample Delegated Leasing Actions Reviewed (cont.)

    limitations. Also, this lease file did not include all the necessary documentation
    including an acquisition plan, market survey, appraisal, price negotiation
    memorandum, and a scoring analysis.

(16) On August 22, 2002, DOI NBC awarded a ten-year lease for 9,950 sq. ft. of office
     space in Washington, DC with rent of $465,163 or $46.75 per sq. ft. for the first
     year. Four SLAs have been issued increasing office space to 31,520 sq. ft., adding
     parking spaces, and increasing the base rent to approximately $1,482,524 or
     $47.03 per sq. ft. Lease file documentation including a market survey, appraisal,
     solicitation for offers, price negotiation memorandum, documentation for urgent and
     compelling need, and required security and fire/safety documentation was not
     provided.

(17) DOI NBC awarded a five-year lease on July 2, 2003, for 8,425 sq. ft. of office and
     related space in Reston, VA at an annual rent of $181,643 or $21.56 per sq. ft.
     Three SLAs have been issued increasing the lease to 18,064 sq. ft., exercising the
     optional five-year extension, and increasing the annual rent to approximately
     $449,782 or $24.90 per sq. ft. Lease file documentation including an appraisal,
     price negotiation memorandum, documentation for urgent and compelling need,
     and required security and fire/safety documentation was not provided.

(18) Department of Justice Bureau of Prisons awarded a lease on November 29, 2005,
     for 45,000 sq. ft. of storage space at an annual rental rate of $3.60 per sq. ft.
     Although we found several areas of non-compliance such as exceeding the PBS
     authorized amount of square feet and incomplete file documentation, this lease was
     for a very short term and was leased by the month (initially, by the day) and as a
     result, this leasing action was not material.

(19) On July 16, 2006, Department of the Treasury (Treasury) awarded a five-year lease
     for 30,426 sq. ft. of office space in St. Petersburg, FL, for a term of five years with
     annual stepped-rent starting at $517,242 ($17.00 per sq. ft.) for year one to
     $593,916 ($19.52 per sq. ft.) for year five. We noted this was a sole source award
     to the incumbent lessor at a higher rental rate (the previous rent from GSA was
     $16.58 per sq. ft., which included the GSA fee of eight percent).

(20) On October 11, 2006, Treasury awarded a lease in San Bernardino, CA for 40,796
     sq. ft. of office space for a term of five years at a rental of $763,701 or $18.72 per
     sq. ft. This was also a sole source award to the incumbent lessor.

(21) On October 12, 2001, the Department of Veterans Affairs (VA) awarded a twenty-
     year lease in Phoenix, AZ for 95,558 net useable sq. ft. of office and related space
     for an annual rental of $2,173,945 or $22.75 per net useable sq. ft. As discussed in
     the body of the report, the Congressional committees approved a prospectus for
     this lease for a maximum of fifteen years and the VA awarded this lease for a firm
     term of twenty years.


                                            A-4
                  Sample Delegated Leasing Actions Reviewed (cont.)

(22) The VA awarded a lease on September 9, 2003, for 27,429 sq. ft. of office space for
     a term of five years in Atlanta, GA. Through SLAs, the square footage of this lease
     was increased to 51,296. The lease file documentation indicated that VA had not
     received a delegation of authority for this leasing action.

(23) On August 15, 2003, National Archives and Records Administration (NARA)
     awarded a twenty-year lease for a new records center facility in Atlanta, GA for
     350,000 sq. ft. of warehouse and office space at a full annual rental of $2,240,070
     or $6.40 per sq. ft. We did not find any reportable conditions related to this
     delegated leasing action.

(24) NARA awarded a twenty-year lease on May 16, 2005, for 161,256 sq. ft. of
     warehouse and office space to be constructed in Fort Worth, TX, at a full annual
     rental of $1,612,560 or $10.00 per sq. ft. We did not find any reportable conditions
     related to this delegated leasing action.

(25) NARA awarded a twenty-year lease on September 15, 2003, for 183,194 sq. ft. of
     warehouse and office space to be constructed in Perris, CA at a full annual rental of
     $2,273,438 or $12.41 per sq. ft. We did not find any reportable conditions related to
     this delegated leasing action.

(26) The Department of Agriculture (USDA) awarded a ten-year lease on October 5,
     2004, for 84,380 sq. ft. of office and basement storage space in Albuquerque, NM
     at an annual rental of $1,616,805 or $19.16 per sq. ft. The PBS September 30,
     2004, delegation letter grants authority to USDA to lease space for 75,000 - 90,000
     sq. ft. However, after award, USDA increased the space to 117,172 sq. ft. There
     was no documentation indicating that USDA had these increases in square footage
     approved through GSA. In addition, the lease file was not complete in that it did not
     contain supporting documentation such as a price negotiation memorandum.

(27) USDA awarded a lease for office space on February 1, 2003, for a term of five
     years for 2,696 sq. ft. of office space in Salem, AR. This lease was selected for
     review because the list of delegated leases did not show a square footage amount.
     We did not find any reportable problems with this delegated leasing action.




                                           A-5
                     REVIEW OF PUBLIC BUILDINGS SERVICE’S
                   DELEGATIONS OF AUTHORITY TO LEASE SPACE
                       REPORT NUMBER A060082/P/6/R07004

                                 APPENDIX B
 Sample Lease Delegations That Were Not Reviewed or Did Not Result in a Lease (1)


 Agency             Agency/Bureau           Lease Location     Sq. Ft. per Listing Notes
DOD        COE/USARSO                               N/A             130,000
DOD        COE                            Ft. Sam Houston, TX        94,000           (2)
DOD        COE                            Ft. Sam Houston, TX        75,136
DOD        US Army/Air Force Exchange               N/A              60,000
                                                                                   (2), (3)
DOD        AAFES                                Dallas, TX           60,000
DOD        COE/USAIMA                               N/A              42,300           (2)
DOD        Navy                               San Diego, CA          56,000           (4)
DOD        Navy                                El Cajon, CA          27,068           (5)
DOD        COE (Defense Finance)              Texarkana, AR          50,000           (6)
DHS        Customs                              Orlando, FL          48,000           (7)
DOI        NPS                                      N/A              52,241           (2)
DOI        Interior–US Geological Society   Sacramento, CA           47,412           (2)
DOI        DOI–National Business Center Reston/Springfield, VA       70,000           (8)
DOI        Bureau of Reclamation                Austin, TX           65,678           (9)
DOI        DOI                                      N/A              50,475
DOI        DOI                                      N/A              35,000          (10)
DOI        DOI                                      N/A              25,000
DOJ        DOJ/Bureau of Prisons            Bennettsville, SC        37,000           (2)
DOJ        U.S. Attorneys                      Charlotte, NC    5 parking spaces     (11)
DOJ        Justice Management Division      Washington, DC       Parking garage     (11)
Treasury   Department of Treasury                   N/A              40,000         (12)
Treasury   IRS                                 El Monte, CA          63,750         (13)
VA         VA                               New Orleans, LA    150 parking spaces (14)
VA         Veterans                                 N/A              45,000         (15)
NARA       NARA                               East Point, GA        300,000           (2)
NARA       Archives – NRF                     Fort Worth, TX        161,256           (2)
USDA       USDA–NRCS                          Batesville, AR           N/A           (16)
USDA       USDA – Forest Service                Bishop, CA         78.2 acres        (17)

Notes:

(1) This appendix presents a summary of the delegated leasing actions that were in
    our sample but that either did not result in an actual leasing action or that we were
    not able to review for the reasons noted.

(2) Based on the information that we used to compile the universe of delegated leasing
    actions, we believed that these entries represented separate delegated leasing
    actions. However, during our review we determined that these were duplicate
    entries for the same delegated leasing action.


                                             B-1
   Sample Lease Delegations That Were Not Reviewed or Did Not Result in a Lease
                                     (cont.)

(3) We did not review this delegated leasing action because the customer agency
    failed to provide the file documentation we requested.

(4) This delegated leasing action was eventually cancelled and the space was
    provided under a contract to provide a Navy Marine Corps Intranet (NMCI) Help
    Center under an NMCI contract with Electronic Data Systems.

(5) According to Department of Defense (DOD) Naval Facilities Engineering Command
    officials, the Department of Veterans Affairs procured this build-to-suit medical
    center for the Navy with authority under the Economy Act. Therefore, this action
    was not conducted under a GSA delegation of authority to lease space and we did
    review this action.

(6) DOD Army Corps of Engineers (COE) officials stated that the 50,000 square feet
    (sq. ft.) lease for the Defense Accounting and Finance Service (DFAS) in
    Texarkana, AR has not been executed due to DFAS changing its mind about
    leasing the space.

(7) While a delegation of authority was granted, Department of Homeland Security
    (DHS) officials stated that the lease for 48,000 sq. ft. in Orlando, FL was not
    executed due to a change in mission requirements and the space was no longer
    needed.

(8) Department of the Interior (DOI) officials stated that while a delegation of authority
    was obtained, the lease for 70,000 sq. ft. in Reston/Springfield, VA was not
    executed.

(9) DOI officials stated that the square footage noted on our sample for the Bureau of
    Reclamation (BOR) lease of 65,678 sq. ft. in Austin, TX is incorrect. The actual
    square footage for this lease is 4,942 sq. ft. While we did have a listing in the FY
    2004 Office of Governmentwide Policy listing for a lease with the BOR for 4,942 sq.
    ft., we did not review this lease in depth because of the small size of the lease.

(10) Regional Public Buildings Service (PBS) officials stated that no delegation of
     authority letters exist for the listings of 50,475 sq. ft., 35,000 sq. ft., and 25,000 sq.
     ft. for DOI. In addition, DOI officials could not provide any information on these
     entries. Accordingly, we did not review information for these entries.

(11) Department of Justice officials stated that while delegations of authority were
     granted, the leases for 5 parking spaces in Charlotte, NC and a parking garage in
     Washington, DC were not executed.




                                             B-2
   Sample Lease Delegations That Were Not Reviewed or Did Not Result in a Lease
                                     (cont.)

(12) Department of Treasury (Treasury) officials stated that although a delegation of
     authority was granted, the lease for 40,000 sq. ft. was not executed. Treasury
     officials further stated that GSA eventually procured this lease for them.

(13) The Treasury lease for 63,750 sq. ft. in El Monte, CA has not been awarded as of
     February 15, 2007, and, therefore, our review was limited. Treasury officials stated
     that they have received one offer for this lease.

(14) Department of Veterans Affairs officials told us that the lease for 150 parking
     spaces in New Orleans, LA was not executed.

(15) This delegation leasing action could not be verified as an actual lease delegation
     action and as a result, we replaced this entry in the sample with a 24,947 sq. ft.
     lease delegated action in Atlanta, GA that we did review.

(16) Although the compiled listing of delegated leases had an entry for the Department
     of Agriculture (USDA) in Batesville, AR, we determined that the space occupied by
     USDA is located in a GSA-controlled building.

(17) The USDA Forest Service lease for 78.2 acres was procured under USDA's
     standing authority to lease special purpose space. Since the focus of our review
     was on general-purpose office




                                          B-3
                   REVIEW OF PUBLIC BUILDINGS SERVICE’S
                 DELEGATIONS OF AUTHORITY TO LEASE SPACE
                     REPORT NUMBER A060082/P/6/R07004

                                     APPENDIX D
                                 REPORT DISTRIBUTION

                                                                           Copies

Commissioner, Public Buildings Service (P)                                    3

Assistant Inspector General for Auditing (JA & JAO)                           2

Assistant Inspector General for Investigations (JI)                           1

Audit Follow Up and Evaluation Branch (BECA)                                  1

Deputy Assistant Inspector General for Real Property Audit Office (JA-R)      1

Special Agent In Charge (JI-6)                                                1




                                           D-1
